<html>
<title> - OPEN DAY HEARING</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]



 
                            OPEN DAY HEARING

=======================================================================

                                HEARING

                               before the

                           COMMITTEE ON RULES
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             SECOND SESSION

                                   ON

OPEN DAY HEARING FOR MEMBERS TO TESTIFY ON PROPOSALS TO AMEND THE RULES 
                    OF THE HOUSE OF REPRESENTATIVES

                               __________

                           September 17, 1998

                               __________

             Printed for the use of the Committee on Rules



                               <snowflake>


                      U.S. GOVERNMENT PRINTING OFFICE
 51-662 cc                   WASHINGTON : 1998
_______________________________________________________________________
           For sale by the U.S. Government Printing Office, 
 Superintendent of Documents, Congressional Sales Office, Washington, DC 20402



                           COMMITTEE ON RULES

                GERALD B.H. SOLOMON, New York, Chairman

DAVID DREIER, California             JOHN JOSEPH MOAKLEY, Massachusetts
PORTER GOSS, Florida                 MARTIN FROST, Texas
JOHN LINDER, Georgia                 TONY P. HALL, Ohio
DEBORAH PRYCE, Ohio                  LOUISE M. SLAUGHTER, New York
LINCOLN DIAZ-BALART, Florida
SCOTT McINNIS, Colorado
DOC HASTINGS, Washington
SUE MYRICK, North Carolina

                    William D. Crosby, Chief Counsel

                    Daniel J. Keniry, Staff Director

              George C. Crawford, Minority Staff Director

               Bryan H. Roth, Office and Systems Manager

                                 ______

             Subcommittee on Legislative and Budget Process

                     PORTER GOSS, Florida, Chairman

JOHN LINDER, Georgia                 MARTIN FROST, Texas
DEBORAH PRYCE, Ohio                  JOHN JOSEPH MOAKLEY, Massachusetts
DOC HASTINGS, Washington
GERALD B.H. SOLOMON, New York

                          Wendy Selig, Counsel

                Kristi Walseth, Minority Staff Director

                                 ______

          Subcommittee on Rules and Organization of the House

                   DAVID DREIER, California, Chairman

LINCOLN DIAZ-BALART, Florida         TONY P. HALL, Ohio
SCOTT McINNIS, Colorado              LOUISE M. SLAUGHTER, New York
SUE MYRICK, North Carolina
GERALD B.H. SOLOMON, New York

                       Vincent Randazzo, Counsel

                Michael Gessel, Minority Staff Director

                                  (ii)



                            C O N T E N T S

                               __________
                                                                   Page

                           September 17, 1998

Opening statement of the Hon. Gerald B.H. Solomon, chairman of 
  the Committee on Rules                                             01
Statement of:
    Davis, Hon. Thomas M., a Representative in Congress from the 
      State of Virginia..........................................    02
    Norton, Hon. Eleanor Holmes, a Delegate in Congress from the 
      District of Columbia [prepared statement p. 04]............    03
    Morella, Hon. Constance A., a Representative in Congress from 
      the State of Maryland [prepared statement p. 10]...........    08
    Danner, Hon. Pat, a Representative in Congress from the State 
      of Missouri [prepared statement p. 18].....................    17
    Shaw, Hon. Clay, a Representative in Congress from the State 
      of Florida [prepared statement p. 21]......................    20
    Menendez, Hon. Robert, a Representative in Congress from the 
      State of New Jersey [prepared statement p. 26].............    24
    Paul, Hon. Ron, a Representative in Congress from the State 
      of Texas [prepared statemtent p. 30].......................    28
    Weygand, Hon. Robert A., a Representative in Congress from 
      the State of Rhode Island [prepared statement p. 34].......    32
    Hostettler, Hon. John N., a Representative in Congress from 
      the State of Indiana [prepared statement p. 39]............    37
    Tiahrt, Hon. Todd, a Representative in Congress from the 
      State of Kansas [prepared statement p. 48].................    46
Statements Submitted for the Record:
    Cardin, Hon. Benjamin L., a Representative in Congress from 
      the State of Maryland......................................    23
    Cubin, Hon. Barbara, a Representative in Congress from the 
      State of Wyoming...........................................    53
    Barton, Hon. Joe, a Representative in Congress from the State 
      of Texas...................................................    54
    Underwood, Hon. Robert A., a Delegate in Congress from Guam..    58
    Nadler, Hon. Jerrold, a Representative in Congress from the 
      State of New York..........................................    66
    Largent, Hon. Steve, a Representative in Congress from the 
      State of Oklahoma..........................................    71

                                 (iii)


  AN ORIGINAL JURISDICTION OPEN DAY HEARING FOR MEMBERS TO TESTIFY ON 
           PROPOSALS TO AMEND THE STANDING RULES OF THE HOUSE

                              ----------                              


                      Thursday, September 17, 1998

                  House of Representatives,
                                Committee on Rules,
                                                   Washington, D.C.
    The committee met, pursuant to call, at 10:08 a.m. in Room 
H-313, The Capitol, Hon. Gerald B.H. Solomon [chairman of the 
committee] presiding.
    Present: Representatives Solomon, Dreier, Linder and 
Hastings.
    The Chairman. The committee will come to order. Today we 
are holding a hearing on the proposed rules changes for the 
coming Congress that will convene on January 3rd of next year.
    I might just say that in the audience we have the former 
Chief of Staff of the Rules Committee, Mr. Donald 
Wolfensberger, who was extremely instrumental, along with David 
Dreier, myself, and other members of the Rules Committee way 
back in 1995, when we rewrote the rules of this House with 
major, major changes. The changes have made the House a much, 
much better functioning body, a much more accountable body, and 
a much more open body to the American people.
    David, you certainly recall that, because you served as the 
cochairman of the committee to look into the--
    Mr. Dreier. Joint Committee on the Organization of 
Congress.
    The Chairman. And from that, and from your leadership as 
well, we made a number of very significant changes. There were 
many of them, but changes such as reducing the committee staffs 
by one-third from the previous Congress. That was a major step, 
which I think set the tone for what we had to do in trying to 
shrink the size and power of the Federal Government and return 
that power to the States, and to set the example.
    But we won't talk about renaming the committees, because I 
am still having trouble with some of that, being the old bull 
that I am, I guess.
    We also limited committee and subcommittee chairmen to no 
more than three consecutive terms, and the Speaker to no more 
than four consecutive terms. We abolished proxy voting, which 
has been very, very effective, because it has required Members 
to be present, and they are certainly more informed and I think 
do a much better job.
    We required committee meetings and hearings that are open 
to the public to be open for broadcast coverage, and of course, 
that was a very, very important rule change. We required 
committee transcripts and the Congressional Record to contain 
verbatim accounts, and required committee reports to include 
all roll call votes on legislation, so that the public would 
actually see what was going on in committees, which they rarely 
had opportunity to do before. There were many, many other 
changes.
    Now, today we have, I think, about 20 Members who have 
asked to testify, and we are in somewhat of a dilemma because 
we are on 1-minutes on the floor, and Mr. David Dreier has to 
carry the continuing resolution, a resolution on the floor, in 
just a few minutes. Then I have to follow up with the rule on 
the foreign operations appropriation bill for 1999. So we will 
get started.
    The Chairman. I notice that we do have a panel which has 
arrived on time, and we commend them for that.
    If we could then have Ms. Eleanor Holmes Norton, Mr. Tom 
Davis, and Mrs. Connie Morella. These are Washington area 
Representatives. They are all distinguished, and we hold them 
all in the highest respect.
    Tom, if I could recognize you, and then we will go to Ms. 
Norton.

STATEMENT OF HON. THOMAS M. DAVIS, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF VIRGINIA

    Mr. Davis. I will try to be brief but to the point. In 
1993, I think the Democratic Congress made a mistake when they 
allowed to have a vote in the Committee of the Whole for five 
delegates from the different Commonwealths around. It so 
happened it was a time when all five happened to be Democrats, 
and I thought that was the very height of active partisanship.
    When the Republicans came into Congress, and in the 
Majority, we rightfully discarded that, but sometimes we throw 
out the baby with the bath water. I feel, not just because my 
district is across the river from the District of Columbia, but 
I noted when the Speaker was in China, I noted when the 
President was in China, they were head to head with Jiang Zemin 
about democracy in Hong Kong and what is going on there, and 
yet in our Nation's capital, 550,000 people, they don't get a 
vote on the House floor.
    I don't favor two Senators. We are not asking for a full 
vote on the House floor, but I believe it would be important 
symbolically if we could restore, not to the other four 
Commonwealths, but to the District of Columbia, a vote in the 
Committee of the Whole. Under the rule as it existed before, if 
it changed any votes, we could revote it.
    It is important for a couple of reasons. The District is 
different from the other commonwealths. The District of 
Columbia pays taxes. Their people are drafted. They serve just 
like my constituents in every other way across the river, or 
just like Mr. Dreier or just like yourself, Mr. Solomon, in 
terms of their obligations to the Federal Government.
    That is not true in Puerto Rico, it is not true in Guam, it 
is not true in the other Commonwealths, but it is the Nation's 
capital, the capital of democracy. I think they ought to be 
able to get a vote on the House floor.
    This is more symbolic than substance, quite frankly, with 
this rules change, but I think it is a very important step 
forward for us, and I would advocate that rule change.
    The Chairman. If I might, so I can go back and forth 
between both sides of the aisle, I would recognize Ms. Norton, 
and then let you be the cleanup hitter, Connie.

STATEMENT OF HON. ELEANOR HOLMES NORTON, A DELEGATE IN CONGRESS 
                 FROM THE DISTRICT OF COLUMBIA

    Ms. Norton. Thank you very much, Mr. Chairman. I am 
particularly grateful to my two colleagues, Mr. Davis, who is 
the Chairman, and Mrs. Morella is the Vice Chair, of the D.C. 
subcommittee, for their willingness to come forward and support 
my effort to regain my vote on the House floor.
    The legal work has been done for the committee. The rules 
of the committee, of course, allow the Majority to make its own 
rules. The U.S. district court and the court of appeals have 
both ruled that it is constitutional to allow the delegate vote 
on the House floor.
    I represent more than half a million people. I have to tell 
you that when I got the vote on the House floor, though it is 
not a full vote, though it is not a complete vote, there was a 
sense of elation, a sense of being a part of America that had 
not been there for 200 years.
    My constituents feel deeply about it, in no small part 
because of the tax issue. We are the third per capita in 
Federal income taxes, and the great American slogan, no 
taxation without representation, applies over and over again 
for us in the District.
    But there are other reasons as well why I think the House 
would want to make sure I could vote on the House floor. The 
District is the only local jurisdiction in the United States 
whose own budget must be appropriated by the Congress of the 
United States, even though today there is not one penny of 
Federal money in that budget. So that, for example, if 
something happens over here, a likely shutdown--even though we 
are dealing with our own money, the District could not spend 
its own money. You want your own Member to have at least some 
say in that with a vote.
    The District is the only jurisdiction in the United States 
where Congress can overturn its laws, and it has done so, and 
continues to do so. You would want your own Member to at least 
have a vote in that process. It is not a vote in the formal 
final House, but it is at least a vote in the Committee of the 
Whole.
    The District is the only jurisdiction which does not have 
full self-government. Ironically, if I were an American 
citizen, as Puerto Ricans are, living there, the Congress of 
the United States couldn't come and overturn my vote. I have 
full self-government.
    For all those reasons, because of the close relationship to 
what happens in the District and the Congress, it seems to me 
that you would want the Member from the District to be able to 
vote.
    This would be a particularly propitious time to return my 
vote. The Congress cannot help but notice that the District, 2 
years ahead of time, has not only balanced its budget, but now 
comes in with a surplus, and, of course, just this week a whole 
new regime is likely to come forward in the District after 
these elections. It would be a particularly generous act, 
therefore, for the Congress to grant this limited right for the 
District to have representation in the Committee of the Whole. 
I ask that you do so.
    The Chairman. Thank you very much, Ms. Norton. I remember 
very well your work on the Joint Committee on the Organization 
of Congress, and that was when I first had a chance to get to 
know you. I appreciate the fact that you take this and other 
institutional issues so seriously.
    [The prepared statement of Ms. Norton follows:]

    [GRAPHIC] [TIFF OMITTED] T1662.001
    
    [GRAPHIC] [TIFF OMITTED] T1662.002
    
    [GRAPHIC] [TIFF OMITTED] T1662.003
    
    [GRAPHIC] [TIFF OMITTED] T1662.004
    
    The Chairman. Mrs. Morella?

  STATEMENT OF HON. CONSTANCE A. MORELLA, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MARYLAND

    Mrs. Morella. Thanks, Mr. Chairman. I appreciate the 
opportunity to testify here on behalf of something that I think 
is important as we craft the House rules for the next Congress, 
and that is a provision to allow the delegate from the District 
of Columbia to vote when the House meets as a Committee of the 
Whole.
    I have long supported voting rights for the Delegate from 
the District of Columbia. The unique status of the District of 
Columbia makes it the only jurisdiction in the Nation where, as 
has been mentioned, the residents pay Federal taxes and have no 
voting representation in Congress. I think the policy smacks of 
discrimination. It seems undemocratic, unfair to the taxpaying 
citizens of our Nation's capital.
    As the Vice Chair of the Subcommittee on the District of 
Columbia and the Representative from neighboring Montgomery 
County, Maryland, I have a vested interest in supporting voting 
rights for the Delegate from the District of Columbia. As 
members of the regional congressional delegation, Ms. Norton 
and I work together on critical regional issues, traffic 
congestion, growth management, water and air quality, work 
force development, and other matters of common interest and 
concern, and with the representative from Virginia, we are all 
part of the region.
    I believe that in restoring the vote of the District of 
Columbia delegate when the House is in the Committee of the 
Whole would be a step toward advancing the interests of the 
Washington metropolitan region and its citizens.
    I served in the 103rd Congress when the House voted to 
expand voting rights for the five delegates representing four 
island territories and the District of Columbia, and at that 
time the House gave the five delegates the right to vote as 
part of the Committee of the Whole on amendments on the floor. 
Opponents called this move by the House a power grab that was 
unprecedented and unconstitutional. Although the 
constitutionality of this provision was upheld, it was repealed 
during the 104th Congress when the rules of the House were 
revised.
    Unlike the residents of the territories, such as Guam, 
American Samoa and the Virgin Islands, the people of the 
District of Columbia pay Federal taxes. I am not asking you to 
restore the vote for citizens who pay no taxes to the U.S. 
Treasury. That would be like asking for representation without 
taxation. But rather, I am asking that you restore the vote in 
the Committee of the Whole only for the delegate from our 
Nation's capital.
    Ms. Norton has been allowed a vote on all issues that come 
before the two legislative committees on which she serves. Most 
of the floor sessions in the House are conducted in the 
Committee of the Whole, which doesn't require a majority of the 
435 Members to be present during debates. Most of the major 
House votes except for final passage of legislation are taken 
in the Committee of the Whole. If the D.C. delegate can be a 
full voting member of a legis- 
lative committee, she can also be a member of the Committee of 
the Whole.
    Denying voting representation to the residents of the 
District of Columbia, who are taxpaying citizens of the United 
States, I think is an injustice that we should try to overturn 
for the good of D.C. and the greater metropolitan Washington 
region. I hope, Mr. Chairman, that you and members of the 
committee will include in the rules of the House for the 106th 
Congress a vote on the House floor in the Committee of the 
Whole for the delegate from the District of Columbia.
    Again, really, it is good of you to allow us to come and to 
testify on behalf of this rule change. Thank you.
    The Chairman. You are always welcome, because you have a 
right to be here.
    Mrs. Morella. Thank you.
    [The prepared statement of Mrs. Morella follows:]

    [GRAPHIC] [TIFF OMITTED] T1662.005
    
    [GRAPHIC] [TIFF OMITTED] T1662.006
    
    [GRAPHIC] [TIFF OMITTED] T1662.007
    
    [GRAPHIC] [TIFF OMITTED] T1662.008
    
    [GRAPHIC] [TIFF OMITTED] T1662.009
    
    [GRAPHIC] [TIFF OMITTED] T1662.010
    
    The Chairman. Let me just say that I certainly have 
sympathy with all of your testimony, and I have even more 
sympathy when you were talking about just the Delegate from 
D.C., because of the reasons outlined.
    There is a problem. As you know, I was one of the main 
opponents of allowing the Delegates to vote. When we enacted 
the rule, it was done so to try to meet the problems with the 
Constitution. In doing so, as you know--the rule was written so 
that technically, if the Delegates voted and the vote counted, 
it didn't count, and there was a revote.
    That led to some problems, because as votes take place on 
the floor, you know, we all are in a position of give and take, 
quid pro quo, and sometimes when you see how the vote is 
turning out, Members change their vote, they wait, they 
withhold their votes, and it does change whether or not that 
vote was really decisive. So there is a gray area there, and it 
is too bad. I don't know how you can deal with it, other than 
changing the Constitution.
    Certainly David Dreier, who will be your new Chairman of 
this committee come January 3rd--
    Mr. Dreier. God and the voters willing.
    The Chairman. --will be making his recommendations.
    Mr. Dreier. Let the record show I am going to support Mr. 
Dreier.
    The Chairman. But I really think we might need to look at 
the Constitution sometime and see what we can do to 
specifically take care of the Delegate from D.C., because of 
the difference in being taxpayers. I think it makes an awful 
lot of difference. Maybe we ought to take a hard look at it.
    Ms. Norton. Mr. Chairman?
    The Chairman. Yes.
    Ms. Norton. The political problem you raise, Mr. Chairman, 
might have been of some concern when there were five votes, 
five Delegates. But the request here is for one vote. It seems 
hardly likely that there would be many instances where that 
political concern would come into play.
    The Chairman. That is why I said I have greater sympathy 
for what you are offering here today. It makes a lot of 
difference.
    Mr. Dreier.
    Mr. Dreier. Thank you very much, Mr. Chairman. I guess my 
first question would be, if we were to proceed to do this, 
Eleanor, would you become a Republican?
    Ms. Norton. Can I take the fifth on that one?
    Mr. Dreier. The second and serious question that I would 
really pose on this is what would be the reaction of the other 
four? If you go back to 1993 and look at the fact that the 
District of Columbia was, in fact, categorized with the other 
four, would there be--I am just wondering if you have had any 
conversations with the other Delegates to see what their 
response would be?
    Ms. Norton. I have. I felt an obligation to go to the other 
Delegates. In the first instance, it was the special 
circumstances of the District of Columbia, frankly, that caught 
the attention of the Democrats when they were in the Majority 
and did this in the first place, and then with some concern 
within the Democratic Caucus about the other Delegates, but 
they said, well, the Delegates have always been treated the 
same. They usually came from territories, they became part of 
the United States, no harm they thought would be done.
    When, in fact, the House turned over, I went to the other 
Delegates and said, and I say in my testimony, that without 
prejudicing their rights to forward their position, it did--it 
seems to me that I had to press the House for the only 
taxpaying residents of the United States who had no 
representation, and they understand that.
    They have not said to me, well, we don't think you should 
go without us. In fact, I think that I have been open with them 
and have indicated that I am going forward and why I am going 
forward. It has not destroyed in any way the relationship they 
and I have.
    I have a joke among them that I will come forward with at 
this time. If you were to give--remember what these Delegates 
have. They don't have to pay Federal income taxes. I would not 
like to see the reaction of Members' own constituents if you 
gave them the choice of whether to send one of them here or pay 
Federal income taxes. So they have not been clamoring for the 
exchange in that sense.
    Mr. Dreier. Thank you very much.
    The Chairman. Mr. Hastings?
    Mr. Hastings. I don't have any questions, thank you.
    The Chairman. Ladies and gentlemen, we appreciate your 
coming. Thank you for your candor and for testifying.
    The Chairman. The next scheduled witness will be Pat Danner 
of Missouri. Pat, one of our distinguished Representatives from 
the great State of Missouri, the great State of Harry Truman, 
whom I admired and respected greatly.

STATEMENT OF HON. PAT DANNER, A REPRESENTATIVE IN CONGRESS FROM 
                     THE STATE OF MISSOURI

    Ms. Danner. Thank you, Mr. Chairman.
    Mr. Chairman, Mr. Chairman-to-be, and panel members, thank 
you for having me here. I will be very brief this morning. I 
know there are other Members. I will summarize my statement.
    It is not a philosophical question, it is really a 
practical question that I certainly have asked myself a number 
of times over the years. I don't think there is any Member of 
our body on either side of the aisle who has not said to 
someone else as they entered the Chamber, "Whose amendment is 
this?" It seems to me it would be easy to post on the vote 
board the name of the person who is sponsoring the amendment; 
say, the Dreier amendment. Then at least we know which one it 
is.
    I think there are many Members who have--I know that to be 
the case--that voted thinking it was one amendment, and indeed, 
it was another amendment. So my suggestion is simply that we 
look at redoing that vote board in a way to give us more 
information.
    [The prepared statement of Ms. Danner follows:]
    [GRAPHIC] [TIFF OMITTED] T1662.011
    
    Mr. Dreier. The board down on the House floor?
    Ms. Danner. Yes.
    Mr. Dreier. Not in the cloakrooms?
    Ms. Danner. Yes, on the House floor. Many of us don't have 
time to stop by the cloakroom. We run from a meeting such as 
this and run down immediately to the floor.
    The Chairman. Mr. Dreier.
    Mr. Dreier. Let me just say, Pat, this is actually 
something that a number of us have talked about. I was under 
the impression, first, that your idea was to simply get those 
in the cloakroom to post more information in the cloakroom; 
especially since during both the 104th Congress and the 105th 
Congress, really at the request of both Democrats and 
Republicans, we have been putting votes together.
    I think that you make a very good point, that when we do, 
since we do identify amendments by the name of the sponsor, I 
think that the idea of having the name of the sponsor placed on 
boards on the House floor is a very good one. And, in fact, I 
think we had a discussion with the Parliamentarian, and I 
raised this with the Parliamentarian a couple of months ago, so 
I think it is a very, very worthwhile proposal. I am glad to 
see that in a bipartisan way we are interested in doing that.
    Ms. Danner. As a matter of fact, I sent a letter some time 
ago to the Clerk, and did not get a response, as I recall. But 
if there was some reticence as to an individual's name being 
placed there, maybe we could even do it by numbering the 
amendments, and have "amendment number 12," and then we could 
look and see that it was the Dreier amendment. I just think it 
would be helpful to us.
    Mr. Dreier. I think it is a very good idea, and there are 
down sides to having us roll those votes. When we were in the 
Minority, we were very troubled about the fact that we would 
have a debate, and then many Members would look forward to that 
debate, and we would have a debate on another and another 
amendment, and then we would all vote seriatim on those 
amendments as they come up.
    I think that anything that can be done to help clearly 
differentiate between and among the amendments that are 
considered would be helpful. So I appreciate your bringing it 
to our attention again.
    Ms. Danner. I might say just in closing that I like the 
idea of rolling the votes. It makes the rest of our day move 
more smoothly. I think it was a very good suggestion on the 
part of the people on your committee.
    The Chairman. Mr. Hastings?
    Mr. Hastings. I think that is an excellent idea. I guess I 
have a sense of frustration coming out, as you do, and, what 
vote is this? In this era of technology, I know it can be done. 
I know several State legislatures, including my State 
legislature, do that. I think that is an excellent idea.
    Ms. Danner. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Mrs. Danner, thank you so much for coming. We 
appreciate it.
    The Chairman. The next scheduled witness is the Honorable 
Clay Shaw.
    Clay, if you would like to come forward your entire 
statement will appear in the record without objection. Take 
whatever time you feel is necessary.

STATEMENT OF HON. CLAY SHAW, JR., A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF FLORIDA

    Mr. Shaw. Thank you, Mr. Chairman. I will place my 
statement in the record, and I will be brief.
    The proposal that I place before this body is one that 
would limit the number of 60-minute special orders that any 
Member of Congress can have without paying out of his office or 
her office account the sum of $3,000 for each 60-minute 
proposal.
    If you watch the late night special orders, if you sit in 
the chair through the late night special orders, you find that 
there is a handful of Members that regularly take advantage of 
this perk of office. It keeps our staff in through unbelievable 
hours. Members might leave here at 6, 7 o'clock, you can turn 
the television on at midnight, these special orders are still 
going on. It is terribly unfair to our staff, and it is 
terribly expensive. It is something that is not taken advantage 
of by the vast majority of the Members.
    How this would work, every Member, if he cares to take 
advantage of it, would get one 60-minute special order per 
month. If that Member chooses to have two or three 60-minutes, 
they would be assessed, out of their office account, the sum of 
$3,000 for this privilege. Actually, that $3,000 is, I think, 
below the actual cost of having these special orders.
    Ms. Rivers has a bill in which she has estimated that these 
special orders, an hour of special orders, costs anywhere from 
$4,000 to $6,000, so I think this is a very, very reasonable 
figure. I think this is a reasonable thing to ask.
    I think that our staffs are entitled to a family life, too. 
For them to sit here way into the wee hours of the morning 
listening to the same Members is terribly unfair. It is 
impractical. But I think this is a good way of handling it.
    [The prepared statement of Mr. Shaw follows:]
    [GRAPHIC] [TIFF OMITTED] T1662.012
    
    The Chairman. I have to say, I have to agree with you. I 
don't know how you allow Members the opportunity to get their 
points across, you know, to the Nation and on the floor. It is 
unfortunate. Here we are a body of 435 Members, as opposed to 
only 100 Senators. It is difficult for Members to find time to 
discuss bills and legislation and their own points of view. So 
I have somewhat mixed emotions about it.
    But I do think it is abused, because as you say, it seems 
to be mostly a handful of Members that maybe they are trying to 
promote themselves, as opposed to getting into a real dialogue 
or discussion. David Dreier and I have discussed many times the 
old British parliamentary system, where we would actually go to 
the floor and debate--and we did that on a number of occasions 
a few years ago, and I think it was very successful.
    I know he and I were on the opposite sides on something 
called Most Favored Nation treatment of China and others, but 
it was informative to the American people. We received an awful 
lot of comment from the public on that. So your points are 
certainly well taken.
    Mr. Shaw. If the Chairman would allow me, I think very 
little educational material goes out during special orders, the 
way it is set up today.
    The Chairman. Mr. Dreier.
    Mr. Dreier. Thank you, Mr. Chairman.
    Let me just say a couple of things. It is interesting to 
listen to these Republicans talk about a handful of Members 
utilizing this. When we are talking with the Speaker of the 
House, I think he would argue that that was the one opportunity 
that he had, along with our former colleague, Bob Walker, to 
really convey the Republican view of the world to the American 
people.
    I will say that the argument is not necessarily a bad one. 
In 1976, the Supreme Court in the Buckley v. Valeo decision, 
which, as we know, is often talked about in political 
campaigns, did address speech. Maybe that charge would not be 
unwarranted.
    I do think that--I suspect there would be more than a 
couple of Members who would be very concerned about moving in 
that direction, though. And also, it is interesting, many 
people do that just with the hope that they can get on 
television. Well, it is cable television. Now we have MSNBC, 
the Fox News Channel, CNN. You know, all of these outlets are 
out there creating opportunities for many of us to late at 
night sit around and get interviewed by people, so there are 
new opportunities for Democrats and Republicans to get their 
message out there. Maybe this would be something to consider.
    Mr. Chairman, since you have just handed this to me, may I 
ask unanimous consent that you have this placed in the record 
Mr. Cardin's statement.
    The Chairman. Without objection.
    [The prepared statement of Mr. Cardin follows:]
    [GRAPHIC] [TIFF OMITTED] T1662.013
    
    Mr. Shaw. There are modifications that could be made to 
this proposal, such as unlimited time for the Majority and 
Minority Leader or his designee. These are things that can be 
handled so that if someone has a real political message out 
there, that we are not in any way interfering with that message 
getting across.
    But these are personal special orders where the Members 
just get on the television, and they talk to an empty room for 
an hour and have basically said nothing. I have sat in the 
chair through some of these, and they are painful to listen to.
    Mr. Dreier. Some of them are fascinating.
    Mr. Shaw. In fact, I marvel sometimes that somebody can 
talk to themselves for 1 hour without stopping.
    Mr. Linder. No comment.
    The Chairman. Mr. Hastings?
    Mr. Hastings. No comments.
    The Chairman. Thank you. It makes a lot of sense. We 
appreciate you coming.
    Mr. Shaw. I would only suggest that this body take a look 
at staff on the floor, and get some idea of what this is doing 
to their home life. It is a terrible thing. I think it should 
be brought under control.
    The Chairman. The gentleman from New Jersey, Mr.Bob 
Menendez. Bob, if you want to summarize your statement, your 
entire statement will be put in the record. Take all the time 
you need.


STATEMENT OF HON. ROBERT MENENDEZ, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF NEW JERSEY

    Mr. Menendez. Thank you, Mr. Chairman. I appreciate this 
opportunity.
    The floor of the House of Representatives is entrusted to 
us to do the Nation's work. It is entrusted to us to have a 
place to do the people's business, represent their views, 
debate, negotiate, and legislate. I don't think any other 
purpose could be defended.
    However, in honor to those Members who, in fact, have 
served here, they have privileges on the floor. They are given 
access to the floor. If it remains an honorary privilege, I 
think it could be defended, but if it is used in any way to 
personally or financially benefit a former Member, I think in 
my view it would be a breach of trust that the American people 
would not accept.
    Under the current House rules, it permits a former Member 
to use the House floor to lobby for his or her own personal or 
financial gain, so long as it does not concern legislation 
pending on the floor or reported out of committee. Whether or 
not there is legislation pending should not matter. I think a 
former Member should not be able to use their status to lobby 
for any personal or financial gain on the floor.
    I would just like to give you a quick example. Let's 
suppose that a former Member's legal fees are before a House 
committee. I believe few, if any, Members would think it proper 
for that former Member to have access to the House floor to 
lobby to have his or her legal fees paid, but the current rules 
allow it. I don't think they should.
    Or let's say that a former Member has a private tax bill 
before the Committee on Ways and Means. I think most Americans 
would object to that ex-Member having an opportunity to use the 
floor to lobby for privileges that no other citizen in this 
country would have. I don't think it is a position that we can 
defend.
    So the proposal I offer, which I introduced as House 
Resolution 229 last year, would prevent these potentially 
unethical situations by expanding the current prohibition to 
include denial of floor access to any Member who has a personal 
or financial interest in any measure or matter under 
consideration in a committee or subcommittee, and there is 
clear precedent for this change.
    Under the current rules, former Members are already barred 
from the floor if they represent a client for the purpose of 
influencing legislation under consideration in a committee or 
subcommittee. In that case, it is important to note that the 
mere status of being employed by an outside group for this 
purpose is enough to bar a former Member from the floor, 
regardless of his or her intent to use access to lobby.
    So the reasons are clear. The Speaker or chair should not 
be in the position of micromanaging conversations on the House 
floor. If a former Member wants to use his position to lobby in 
that way, that is fine, but they should not expect the people 
to facilitate that work by letting them on the floor, or put 
the House in the position of monitoring their activities, so we 
keep a bright line and we simply bar them altogether.
    Lastly, I think the rules, however, currently are much more 
lenient when it comes to a Member's personal interest, but they 
should not be. My proposal would rectify that situation. As 
with any other outside interests, under the proposal that I am 
offering for the committee to consider, the mere status of 
having a personal or pecuniary interest under consideration in 
a committee or subcommittee would be enough to bar a Member.
    I think that that would hold us to the high standards that 
the House should be held to, keep the trust of the American 
people, and still preserve the honor for former Members that 
they deserve.
    The Chairman. Bob, thank you very much. Your points are 
well taken.
    [The prepared statement of Mr. Menendez follows:]
    [GRAPHIC] [TIFF OMITTED] T1662.014
    
    [GRAPHIC] [TIFF OMITTED] T1662.015
    
    The Chairman. I might just note that the existing House 
rule is very, very tight. You are suggesting it could be made 
even tighter. It says, "Only if they do not have any direct 
personal or pecuniary interest in any legislative measure." 
That is pretty tight.
    That, I think, was written by a man named John Anderson, 
who was an outstanding Member of this body many, many years, 
Bob, before you got here, and he was here before I was, as a 
matter of fact. His former Chief of Staff Don Wolfensberger 
sitting in the back of the room probably was responsible for 
writing this legislation.
    Your points are well taken. We will certainly take a good, 
hard look at it.
    Mr. Menendez. I just want to say, if we continue to read 
it, what I would hope the committee would consider, it says, 
"If it is pending and/or reported out of the committee." You 
know, if it is pending before or reported out of the committee, 
whether or not that is the case, to have access to 435 Members 
of the House, particularly the members of that committee, to 
lobby on your behalf of your own personalinterest is not the 
people's work.
    I think that, yes, there is a very good intent, in the 
context of people who are hired by outside interests. I think 
we can narrow that even further to make sure that your personal 
interests don't come before the people's interest.
    The Chairman. Again, I am just going to cite the "personal 
and pecuniary interest in a legislative measure." "Legislative 
measure" takes it pretty far.
    Again, your points are well taken. We will take a look at 
it.
    Any questions of the witness?
    Mr. Linder. No.
    The Chairman. If not, Bob, thank you very much for coming.
    Mr. Menendez. Thank you, Mr. Chairman.
    The Chairman. The next scheduled witness would be Ron Paul 
of Texas, the gentleman who came here with me 20 years ago and 
chose to leave for a while, and now he is back with all his 
previous vigor.
    Ron, it is always a pleasure to welcome you before the 
committee.

 STATEMENT OF HON. RON PAUL, A REPRESENTATIVE IN CONGRESS FROM 
                       THE STATE OF TEXAS

    Dr. Paul. Thank you, Mr. Chairman. I have just a brief 
statement to make, mainly because we have talked about it 
before, and I think you know and others know my position on 
this. But it will come up again, I guess, for next year's 
writing of the rules.
    This has to do with the drug testing. I know what your 
position is on that, and it is a very sincere position. I have 
a constitutional concern about this. I think some of us deal 
with the Constitution in a much more strict way than others. 
Others like to do it in a more loose way. But I think everybody 
is very serious in doing their best job of interpreting the 
Constitution.
    I just think that random testing is a little bit too loose. 
I just want to make a case, once again, for the voluntary 
approach. I have a policy in my office that when somebody comes 
to work for me, I tell them that they are going to be 
vulnerable to testing. I feel responsible for this.
    I don't know who actually pays for that, but maybe the rule 
ought to be if we have a voluntary program rather than a 
compulsory program, it should even be a cost out of our own 
budgets. Maybe it should not be out of the general budget, like 
it would be if it were mandatory. That would be one way that 
others might be encouraged to do this.
    There is no argument that drugs are not a serious problem. 
I see this from the viewpoint of a physician. But I am also 
very concerned that we don't do things carelessly on this.
    The only other point that I would like to make is that in 
many ways, I think we had a profound statement of this 
yesterday, a sentiment of the Congress, I do know that most 
Members that I have talked to, when they are not on line to 
have voting--to be pressured to vote on this for themselves, 
because there would be a political pressure, too--but when I 
talked to them, I don't find very many Members that say, hey, 
this is a great idea, and we should encourage it.
    But there have been some court cases, and the courts 
generally have ruled that only under extreme circumstances 
should mandatory testing ever be used, you know, without a 
warrant. I just think it would be so much better with our 
philosophy of limited government and voluntarism, rather than 
through compulsion, that we do this in a voluntary approach.
    Yesterday, as we were getting ready to vote on the Taylor 
amendment, which would mandate that all new employees could be 
subject to random drug testing, our colleague Tom Barrett put a 
little notice on the desk making the argument to vote no on the 
Taylor amendment. I just want to quote from that.
    He said, "Federal courts have consistently ruled that drug 
testing is a 'search' for purposes of the fourth amendment and 
as such must be reasonable. The courts have permitted mandatory 
drug testing of government employees in the absence of a 
warrant or individualized suspicion, but only when the 
government can demonstrate a special need beyond the demands of 
ordinary law enforcement."
    So once again, I just want to make the case that we have 
to, indeed, be very cautious and very careful, respect our own 
privacy, and, at the same time, we are obligated to respect the 
privacy of all individuals throughout the country. I think the 
Congress clearly spoke yesterday that even Federal employees 
deserve the protection of the fourth amendment.
    I do not think this in any way ever precludes any 
organization, any businessman or anyone in the Department of 
Defense--obviously, if we are going to have people flying 
airplanes and other things, they had better not be on drugs, 
and they had better not be on alcohol and a lot of other 
things. I do not think this precludes that at all. I just want 
to, once again, make that point, that either this year or next 
year, if it comes up, that we give serious consideration to the 
voluntary approach. Thank you.
    [The prepared statement of Dr. Paul follows:]
    [GRAPHIC] [TIFF OMITTED] T1662.016
    
    The Chairman. I hate to get involved with this 
conversation, Mr. Paul, but I was going to testify myself a 
little later on it. I will probably say some things that I will 
regret saying here today, but certainly I would never question 
your sincerity, ever.
    You and I come closer to sharing the same view on 
everything than most Members of this Congress, and almost to 
the point of myself being Libertarian.
    I would never question the sincerity or the integrity of 
any other Member on how they vote on this issue. I just have to 
tell you, and I am just terribly upset with a lot of Members, 
with the Republican leadership, even members of this Committee 
on Rules, and the rank and file out there, with that vote that 
was cast last night, I think it was a disgrace. I think it 
sends a terrible, terrible, terrible signal.
    Again, I am going to hesitate to get really upset about it. 
The gentleman from Mississippi, Mr. Taylor, I think he did a 
great disservice in calling up that amendment. If we had had a 
legitimate debate on the issues, I think the vote would have 
been entirely different.
    I just have to recall back in the early 1980s when Ronald 
Reagan, at my urging, decided to implement random drug testing 
in our military. We had a terrible situation at that time. We 
had gone through the 1970s, where we were--our military had 
literally gone to hell because of this Congress and the 
deemphasis on our military. We had a lot of inner-city kids 
that were just here looking for a job, looking for a way to 
make a living.
    There was a lot of drug use. It was 25 percent, admitted, 
and that was at all levels, from every admiral to every buck 
private. When Ronald Reagan implemented random drug testing, it 
dropped drug use within 4 years, from 25 percent down to 4 
percent. Can you imagine, 4 percent? And that is what it is 
today.
    Don't tell me it doesn't work. What was the reason? It was 
because their future was jeopardized if they were randomly 
tested for drugs.
    Fortune 500 companies in my district, the General Electric 
Company, the International Paper Company, and I could go on 
with a number of others, IBM, they all have random drug 
testing.
    Mr. Linder. Haven't we moved up to Atlanta yet?
    The Chairman. We are moving back.
    They all do it. Why do they then stop using drugs? Most of 
these, these Fortune 500 companies, these are not laborers, 
like with General Motors, maybe, or Ford, working in the 
assembly plant, these are upper middle-class yuppie people; 
people, I guess, like you and me. We are considered a little 
above the middle class, I guess, because of our earning 
capacity.
    But when 75 percent of all the illegal drug use in America 
is caused by your constituents and mine, okay--in other words, 
by that level of society who are using illegal drugs 
recreationally on the weekend, that is what props up the price. 
That is what causes this problem that we have today. And 
everywhere that random drug testing is put in as a condition of 
employment, it drops demonstrably.
    So what is so damned different between a Federal employee 
and all these private sector people? What is different between 
you and me? Why can't we set the example? I get furious about 
it when I see votes cast. I don't question the sincerity or 
integrity of Members because they feel like you do. They feel 
very strongly, and they are entitled to their beliefs. But it 
is dead wrong, and if we are ever going to deal with what I 
consider one of the top two or three major problems in this 
country--and that is what is happening to a whole new 
generation of young Americans. My children, my grandchildren, 
are being affected by this today.
    I am going to tell you one more story, you know, which just 
demonstrates the problem. I have a newspaper publisher in my 
district, and I don't want to mention names, but for years he 
used to belittle me when I would go to a party or something and 
he would be there. He would say, Jerry, you are all wrong with 
this. There is no real problem with marijuana.
    This went on for about 10 years. A couple of years ago he 
called me and he said, Jerry, I want you to know how wrong I 
was, how right you were, because, he said, my daughter, who is 
in the ninth grade, is hooked on cocaine. That is the 
difference.
    Any questions of the witness?
    Mr. Linder. No, Mr. Chairman.
    Mr. Hastings. No, thank you.
    The Chairman. We thank you for coming. Your points are 
always welcome.
    The Chairman. The next scheduled witness would be Robert 
Weygand of Rhode Island.
    Bob, if you would like to come forward. Again, your 
statement will appear in the record, as well.

   STATEMENT OF HON. ROBERT A. WEYGAND, A REPRESENTATIVE IN 
            CONGRESS FROM THE STATE OF RHODE ISLAND

    Mr. Weygand. Thank you, Mr. Chairman.
    Mr. Chairman, about 20 months ago when I first came here 
and was looking for an apartment, I met a young woman by the 
name of Moira Shay. She was showing me an apartment that she 
was subletting in her building. She was visually impaired, and 
she had this wonderful golden Labrador Retriever that helped 
her around.
    I met her and talked with her, we had mutual friends, and 
found out that she was a staff member on the Senate side. About 
2 months later, just after we had begun the session, she was 
denied access to the floor of the Senate because the rules of 
the Senate did not allow for staff members, clerks of committee 
or anyone to be on the floor using any kind of a device that 
was necessary for an impairment they may have, whether it be a 
seeing eye dog, a wheelchair, or other kinds of devices.
    I know I spoke to you about a year and a half ago about 
this, Mr. Chairman. We waited, and we agreed to wait until now 
to bring this before the committee. While on our floor our 
Members have been very generous to other colleagues that may be 
impaired, in wheelchairs or on crutches, we really do not have 
a rule that allows for staff members to be allowed on the floor 
if they are in need of such devices because of their 
impairment.
    The resolution I submitted last year, House Resolution 135, 
would have permitted Members' staff or committee clerks, I 
believe is the proper terminology for committee staff members, 
to be on the floor with such devices.
    So I suggest to the committee that this would be the 
appropriate time, the 106th Congress, to take an action that 
would allow for such individuals to be on the floor.
    It is necessary, as you all know, for us to have staff to 
support us on the floor at certain times. It certainly is not, 
I believe, the wishes of the Congress to ever deny people to 
have support equipment or the necessary kinds of assistance 
that they require for their handicaps. So I ask the committee 
to take into consideration this resolution, this rule, that 
would simply allow that, Mr. Chairman.
    The Chairman. Bob, we thank you very much. You did discuss 
that with me. I think it has merit. Certainly over the next 2 
months we are going to be looking at this. Certainly this will 
be given great consideration.
    [The prepared statement of Mr. Weygand follows:]
    [GRAPHIC] [TIFF OMITTED] T1662.017
    
    [GRAPHIC] [TIFF OMITTED] T1662.018
    
    [GRAPHIC] [TIFF OMITTED] T1662.019
    
    The Chairman. Any questions of the witness?
    Thank you very much. Bob, thank you very much. We 
appreciate you coming.
    We will go now to the very distinguished and Honorable John 
Hostettler of Indiana, one of the dynamic new Members of this 
body.

   STATEMENT OF HON. JOHN N. HOSTETTLER, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF INDIANA

    Mr. Hostettler. Thank you, Mr. Chairman, and Members.
    The Chairman. He reminds me of a young David Dreier when 
Dave used to be young and first came here.
    Mr. Dreier. Many, many, many years ago.
    Mr. Hostettler. What a compliment. What a compliment. I 
appreciate that, Mr. Chairman.
    Mr. Chairman, as you probably remember, a few months ago 
during the discussion of ethics reform, I came to this august 
body and asked for a provision to be considered with regard to 
a high school Constitution competition, very similar to the 
arts competition. I was asked at that time to come back at this 
time to possibly make that a rule of the House.
    To give you a little background of why I think it is so 
important, recently in Senate appropriations hearings, the 
honorable Edward Rendell, chairman of the National Constitution 
Center, spoke of the lack of understanding and knowledge of 
high school students of the Constitution itself.
    To give you some points he made that I think are very 
telling with regard to why such a competition sponsored by the 
House of Representatives and sponsored by individual Members of 
the House would be important, only 21 percent of American teens 
know how many U.S. Senators there are, but 84 percent know how 
many brothers there are in the musical group Hansen.
    Seventy-five percent know what city in the United States 
boasts the zip code 90210, but only 26 percent know that the 
U.S. Constitution was written in Philadelphia.
    Ninety-two percent of those high school students surveyed 
knew who stars as the father of the house in TV's Home 
Improvement, while only one-third polled knew the name of the 
current Speaker of the House of Representatives.
    Just over one-third knew the first three words of the 
preamble to the Constitution, while almost 70 percent knew the 
first three letters of most website addresses.
    This is one indication why it is necessary, I believe, for 
us to raise the level of understanding of the U.S. Constitution 
among young people. Unlike the arts competition, however, the 
House has not yet spoken to the ability of a Member to promote 
the Constitution as part of his or her official business. So if 
I may suggest, the House should allow for a Constitution 
competition very similar to the arts contest. Creating a new 
House rule is the best way to accomplish this goal. 
Accordingly, I have submitted to the rules panel the proposed 
language for a new rule as part of my testimony.
    When you consider that today's teenagers will be tomorrow's 
leaders, I believe this type of project, the Constitution 
project, is es- 
sential. Who better to promote it than ourselves, the elected 
representatives of these young people?
    I must say that the committee chose an excellent time to 
postpone these proceedings from last week to today, because 
today is the 211th anniversary of the ratification of the 
United States Constitution by the Constitutional Convention. 
So, I applaud you on your timeliness of this issue. Thank you 
Mr. Chairman, Committee Members, for your time and 
consideration of this issue.
    Mr. Dreier. We worked hard on that.
    The Chairman. Yielding to Mr. Dreier, I just wanted to 
thank you for your testimony. It has great merit. We will look 
into it.
    [The prepared statement of Mr. Hostettler follows:]
    [GRAPHIC] [TIFF OMITTED] T1662.020
    
    [GRAPHIC] [TIFF OMITTED] T1662.021
    
    [GRAPHIC] [TIFF OMITTED] T1662.022
    
    [GRAPHIC] [TIFF OMITTED] T1662.023
    
    [GRAPHIC] [TIFF OMITTED] T1662.024
    
    [GRAPHIC] [TIFF OMITTED] T1662.025
    
    [GRAPHIC] [TIFF OMITTED] T1662.026
    
    Mr. Dreier. Thank you very much, Mr. Chairman.
    Let me congratulate you, John, and tell you something that 
you may not have known. Back when I was a young man 11 years 
ago, in fact on the 200th anniversary, Jerry Solomon and I and 
other Members at that time went to Philadelphia, actually it 
was in July of that year, I think July 16th, during which time 
we held a session in Philadelphia to mark the 200th anniversary 
then of the Great Compromise, the Connecticut Compromise, which 
established the bicameral legislature.
    You mentioned today--and I have a very interesting woman in 
my district called Louise Lee who has prevailed upon me, and I 
am not resisting at all, at 4 o'clock this afternoon I am going 
to go on some sort of hook-up, be nationwide on Constitution 
Day, reciting the preamble of the Constitution.
    Also, it is extraordinarily interesting that when you think 
about today and sort of the unique challenges that we are 
facing, we are not by any stretch of the imagination, as Doc 
pointed out in our hearings with the Committee on the Judiciary 
last week--this is not a constitutional crisis at all, but it 
is a very interesting time when people are today looking at 
both the Constitution and the document which consists of all 
those brilliant op/ed pieces that were written by Alexander 
Hamilton, James Madison, and John Jay, the Federalists.
    I am a strong supporter of doing anything possible that we 
can to make sure that more people know Newt Gingrich's name and 
have an understanding of the U.S. Constitution. I think you 
have an interesting idea here.
    The Chairman. Any questions of the witness?
    If not, thank you very much for coming.
    Mr. Hostettler. Thank you, Mr. Chairman.
    The Chairman. Now we move to the Honorable Todd Tiahrt of 
Kansas, another outstanding new Member.
    Todd, it is always a privilege to have you come before us. 
We took care of your amendment last night for you. You will be 
on the floor with it. We appreciate you bringing that to us.

  STATEMENT OF HON. TODD TIAHRT, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF KANSAS

    Mr. Tiahrt. Thank you very much.
    Mr. Chairman, it is always a great honor to come before the 
Committee on Rules. I appreciate the opportunity.
    I have two changes. The first one is very simple. Right now 
the House rules say we start out with a prayer by the Chaplain, 
and then we have the reading and approval of the Journal, and 
third, a Pledge of Allegiance to the flag.
    For me, I think this is not a good establishment of 
priorities, with all due respect to the Speaker and the need to 
approve the Journal. My proposal is that we start out 
acknowledging our faith in God through prayer from our 
chaplain; second, that we would pledge our allegiance to the 
flag and acknowledge our allegiance to the country; and then 
third, move on to the Journal, just switching those two.
    I have been on the floor many times, and sometimes I have 
even called for a vote on the Journal myself as part of our 
strategy, but it always seems very disruptive to me when we 
have this demand for a vote and we have everybody come down, 
and then we go to a Pledge of Allegiance. Sometimes it goes to 
much later in the day.
    I just think if we would change that order, it would not do 
anything as far as detracting from the way we do business or 
detracting from getting to the Speaker's approval of the 
Journal, but it would, first, allow us to acknowledge our faith 
in God, and second, acknowledge our allegiance to the country. 
So it is a very simple change.
    The second one, my second request, relates to raising the 
minimum wage. Currently we have a supermajority requirement to 
raise taxes. I think that is very important, because raising 
taxes places a big demand on the American people.
    When we were undergoing the apparent effects of the last 
raise we had with the minimum wage, it dawned on me that this 
is very serious to Americans; serious to my mother-in-law, who 
is on a fixed income, because her prices went up; it is very 
serious to young people, who are trying to maintain a job.
    I went down to the grocery store and talked to the second 
shift manager where I usually shop in Kansas. He had to lay off 
three people because of the minimum wage hike. I went to my 
local video store. The manager said he had to lay off two young 
people. These are employees who need the income. They are 
trying to work their way through school. It is very serious 
when we raise the minimum wage, because it does cost jobs, and 
drives costs up for seniors.
    I think we should have the same emphasis when raising the 
minimum wage as we do when we raise taxes. I would request that 
we have a three-fifths majority of Members voting in order to 
raise the minimum wage next time we consider it.
    Thank you for your time in listening to my proposals.
    [The prepared statement of Mr. Tiahrt follows:]
    [GRAPHIC] [TIFF OMITTED] T1662.027
    
    [GRAPHIC] [TIFF OMITTED] T1662.028
    
    [GRAPHIC] [TIFF OMITTED] T1662.029
    
    The Chairman. Todd, thank you very much for two very 
excellent recommendations. Certainly I agree with the second, 
and as for the first, there has always been an ongoing 
discussion over what would happen if the Journal were defeated. 
You have to approve the Journal in order to proceed with the 
day's business. If it were defeated, the question is, what 
would happen? Would we then not be able to come back in all day 
and have to come back the following day?
    We need to resolve that, because it has some bearing on 
whether or not we would be able to carry on other business, 
such as the Pledge of Allegiance. Your points are certainly 
well taken.
    Mr. Dreier?
    Mr. Dreier. Thank you very much, Mr. Chairman. First let me 
just say that it is very important that Members pledge their 
allegiance to the flag. One thing about having a recorded vote 
on the Journal, it means that more Members pledge to the flag 
than is the case if they pledge before we actually have the 
vote on the Journal.
    Of course, Jerry Solomon, there is nobody who stands for 
the flag more vigorously than Jerry, and he--you were the first 
one to get the pledge down there.
    The Chairman. Yes.
    Mr. Dreier. To have us stand up. That was something we got 
the Democrats to do, I suspect, in maybe the 103rd Congress, a 
few Congresses ago, before we took over.
    I will tell you that we had an interesting discussion 
yesterday with some members of the Committee on the Budget. I 
am an opponent of all these proposed increases in the minimum 
wage and totally concur with your arguments, but I just have 
difficulty with supermajorities around here.
    One of my concerns, I will say, as I have said in the past, 
is that we take an issue like that, which is very, very near 
and dear to us, not just in a rampant way increasing the 
minimum wage, and then you think about the precedents that 
would be set if, God forbid, we were to be in the Minority, and 
knowing what--there is no one here--what horrible tax and 
spenders and big government people all those guys on the other 
side of the aisle are, I mean, if you think about how they 
could say, "Todd Tiahrt said there should be a supermajority 
for any increase in the minimum wage. I think there ought to be 
a supermajority for a single spending cut, or a supermajority 
required to cut a nickel of taxes in the future." So I am just 
troubled with the whole idea of precedent-setting in the area 
of supermajorities.
    Having said all that, they are brilliant ideas.
    Mr. Tiahrt. It is an interesting argument, what would 
happen if we did disapprove the Journal. Would that mean we 
would have to pledge twice the next day? I just think it 
establishes a good priority.
    The Chairman. Your points are well taken.
    Any questions of the witness?
    If not, thank you very much.
    Mr. Dreier. Mr. Chairman, may I ask unanimous consent that 
the statements by our colleague Barbara Cubin, our colleague, 
Mr. Joe Barton of Texas, the delegate, Mr. Underwood, and your 
fellow New Yorker, Mr. Nadler, be included at this point in the 
record?
    The Chairman. Yes, without objection.
    [The prepared statement of Mrs. Cubin follows:]
    [GRAPHIC] [TIFF OMITTED] T1662.030
    
    [GRAPHIC] [TIFF OMITTED] T1662.031
    
    [GRAPHIC] [TIFF OMITTED] T1662.032
    
    [GRAPHIC] [TIFF OMITTED] T1662.033
    
    [The prepared statement of Mr. Underwood follows:]
    [GRAPHIC] [TIFF OMITTED] T1662.034
    
    [GRAPHIC] [TIFF OMITTED] T1662.035
    
    [GRAPHIC] [TIFF OMITTED] T1662.036
    
    [GRAPHIC] [TIFF OMITTED] T1662.037
    
    [GRAPHIC] [TIFF OMITTED] T1662.038
    
    [GRAPHIC] [TIFF OMITTED] T1662.039
    
    [GRAPHIC] [TIFF OMITTED] T1662.040
    
    [The prepared statement of Mr. Nadler follows:]
    [GRAPHIC] [TIFF OMITTED] T1662.041
    
    [GRAPHIC] [TIFF OMITTED] T1662.042
    
    [GRAPHIC] [TIFF OMITTED] T1662.043
    
    [GRAPHIC] [TIFF OMITTED] T1662.044
    
    The Chairman. Would you also add Mr. Steve Largent, who is 
in markup and cannot arrive?
    [The prepared statement of Mr. Largent follows:]
    [GRAPHIC] [TIFF OMITTED] T1662.045
    
    [GRAPHIC] [TIFF OMITTED] T1662.046
    
    [GRAPHIC] [TIFF OMITTED] T1662.047
    
    [GRAPHIC] [TIFF OMITTED] T1662.048
    
    Mr. Dreier. I don't have a statement to submit. If I had 
one, I would ask unanimous consent that it be submitted in the 
record.
    Chairman. Lastly, let me just testify on behalf of H.Res. 
529, which was introduced by Representative Nadler, whose 
statement you have just put in the record.
    The last bill that I passed when I lelt the State 
legislature in New York more than 20 years ago was this 
legislation. What it is, it is described as the Plain English 
in Law rule. The resolution amends the rules of the House of 
Representatives to require that a bill or a joint resolution 
which amends a law shall be in the form of a comparative print 
of the law proposed to be amended, showing by black brackets 
and italics the omissions and insertions proposed to be made 
into law.
    In addition, an amendment to a section or other provisions 
of a bill or joint resolution offered in subcommittee, 
committee, or in the Committee of the Whole, will be in the 
form of a comparative print as decribed a moment ago.
    What that means is that quite often when you see an 
amendment of the floor, you have no idea what it does. It just 
strikes out works, and does not really say what it is doing. 
This means that the amendment or the change would actually have 
to show the old law; it would show in brackets what you were 
removing, and in italics what you were adding. It makes it very 
simple. It means that any American citizen in this country 
would be able to look at that and know exactly what you were 
doing.
    I would hope, Mr. Dreier, that you would take that into 
consideration on January 3rd. It would certainly be a great 
asset to all the Members of this House.
    Mr. Dreier. Yes, sir.
    The Chairman. That concludes all of the witnesses. We 
appreciate the Members coming to testify. We look forward to 
the recommendations that might come January 3rd.
    This meeting stands adjourned.
    [Whereupon, at 11:08 a.m., the committee was adjourned.]

                                <all>
</pre></body></html>
